No.

IN THE
Supreme Court of the Anited States

 

SHELDON SILVER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent,

NBCUNIVERSAL MEDIA, LLC,
THE NEW YORK TIMES COMPANY,

Intervenors-Respondents.

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this

Court, I certify that the Petition for Writ of Certiorari in Silver v. United States, No.

 

, was served via electronic mail on all parties required:

Jeffrey B. Wall David Edward McCraw

Acting Solicitor General THE NEW YORK TIMES COMPANY
DEPARTMENT OF JUSTICE 620 Eighth Avenue
950 Pennsylvania Avenue, NW New York, NY 10018
Washington, D.C. 20530-0001 (212) 556-4031
(202) 514-2217 mccraw@nytimes.com

supremectbriefs@usdoj.gov

Counsel for Respondent Counsel for Intervenors-Respondents

I declare under penalty of perjury that the foregoing is true and correct.

Wai bad / Mer

Date: July 20, 2020 Meir Feder
